      Department of Homeland Security




        FEMA’s Initial Response to Hurricane Isaac in 

           Louisiana Was Effective and Efficient 





OIG-13-84                                            April 2013

                     OFFICE o.F INSPECTOR GENERAL
                            Department of Homeland StlCl11;ly

                              W,," in ~t"" ,   oc 2M 28 i ""'''' oig <h ..,,'


                                         APR 3 0 2013

MEMORANDUM FOR:                Elizabeth Zimmerman
                               Ac ing Associate Administra                       Response and Recovery
                               Fe eral E                                        nt Agency

FROM:
                               Assis <lnt Inspector eneral
                               Office of Emergen Management                        Over~ight


SUBJECT:                       FEMA'siniti(l1 Response to Hurricane Isaac in Louisiana
                               Was Effective and Efficient
                               FEMA Disaster Number 4080-DR-LA
                               Audit Report Number OIG-13-84

Attached for your information is our final letter report, FEMA '5 Initial Response to
Hurricane Isaac in Louisiana Was Effective and Efficient

Our office audited the Federal Emergency Management Agency'~ (FEMA) initial
response to Hurricane Isaac in Louisiana from early September to m id-October 2012.
We discussed the results ofthis audit with FEMA officials during the audit. We al~o
provided a discussion draft report to FEMA Joint Field Office officials on February 4, 2013,
and to FEMA headquarters on February 12, 2013, and discussed it at e~it conferences
held on February 7 and 12, 2013, respectively. The report does not contain any
recommendations; therefore, you do not need to provide our office with a written
response.

Consistent with our respon~ibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committee~ with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact john Kelly, Deputy Assistant
Inspector General, Office of Emergency Management Oversight, at (202) 254·4100,

Attachment
                                                    


                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


                                             BACKGROUND

Hurricane Isaac struck southeast Louisiana on August 28, 2012, causing widespread
flooding in the low-lying areas impacting Ascension, Assumption, Jefferson, Lafourche,
Livingston, Orleans, Plaquemines, St. Bernard, St. Charles, St. James, St. John the Baptist,
St. Tammany, Terrebonne, Tangipahoa, and Washington parishes (15 parishes). As the
hurricane moved inland and downgraded to a tropical storm and later to a tropical
depression, it continued to move slowly and took several days to exit the state.

FEMA cannot provide disaster assistance under the RobertfT.fStaffordfDisasterfRelieffandf
EmergencyfAssistancefAct, Public Law 93-288, as amended, until the President declares
a “major disaster” or an “emergency.”1 When an incident occurs or threatens to occur
that would not qualify under the definition of a major disaster, the Governor of a State
may request that the President declare an emergency. Based on the Governor’s request
and all available information, FEMA forwards the Governor’s request to the President
with a recommendation for or against an emergency declaration.

In the case of Hurricane Isaac, FEMA recommended and the President declared an
emergency for the 15 affected parishes on August 27, 2012. Later, on August 29, 2012,
the President declared a major disaster for Individual Assistance and Public Assistance in
55 of Louisiana’s 64 parishes. FEMA is providing 75 percent Federal funding for this
disaster.


                                            RESULTS OF AUDIT

FEMA’s initial response to Hurricane Isaac was overall effective and efficient. In
evaluating FEMA’s initial response to this disaster, we focused on answering the
following questions:

       1.   What activities did FEMA perform before the major disaster declaration?
       2.   What were the most pressing challenges that FEMA faced in this disaster?
       3.   What were the most significant resource shortfalls?
       4.   How did FEMA make disaster sourcing decisions?
       5.   How well did FEMA coordinate its activities?




1
    42 U.S.C. §5121, et seq., as amended.
                                                    

www.oig.dhs.gov                                    2                                 OIG-13-84 

                                                    

                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


1. FEMA Proactively Prepared for Hurricane Isaac

FEMA effectively coordinated activities in Louisiana before the President’s major
disaster declaration. On August 25, 2012, FEMA Region VI began coordinating
predeployment activities with the State. After the Emergency Declaration, FEMA moved
quickly to mobilize an Incident Management Assistance Team, set up the Initial
Operating Facility, and respond to requests for initial assistance and needed supplies
using internal resources and mission assignments.

Incident Management Assistance Team: For Hurricane Isaac, FEMA’s Federal
Coordinating Officer and the FEMA Region VI Acting Regional Administrator deployed to
Baton Rouge to coordinate with the Incident Management Assistance Team 2 days
before the hurricane made landfall.2 Incident Management Assistance Teams are full-
time, rapid-response teams with dedicated staff, able to deploy within 2 hours and
arrive at an incident within 12 hours to support the local incident commander. The
teams support the initial establishment of a unified command and provide situational
awareness for Federal and State decision-makers crucial to determining the level and
type of immediate Federal support required. The Incident Management Assistance Team
initially deployed 11 people to Baton Rouge to establish the Initial Operating Facility.

Initial Operating Facility: FEMA operated the Initial Operating Facility from several
trailers connected together. The Initial Operating Facility trailers came ready to use
with computer connections and equipment that allowed FEMA personnel to set up their
computers and start working immediately. Set-up time for operations usually takes
several days, but this “plug-‘n’-play” setup enhanced readiness.

Initial Assistance and Needed Supplies: FEMA used the logistics process and
prenegotiated plans for supplies it previously set up in the event of disasters in
Louisiana. Shortly before this hurricane, FEMA began ordering commodities and 25 fully
equipped mobile housing units from Selma, Alabama, to the Initial Operating Facility
location in anticipation of housing requests. FEMA also tasked other Federal agencies to
support the Federal response through the use of mission assignments. FEMA used
mission assignments to mobilize Federal personnel to the FEMA Regional Response
Coordination Center in Denton, Texas, and to other operational facilities within the
State before the hurricane’s landfall.



2
 The role of Federal Coordinating Officers in disaster operations is to manage Federal resources during a
disaster. They help FEMA accomplish its core missions of saving lives, preventing suffering, protecting
property, and conducting recovery operations. Their primary mission is to coordinate the timely delivery
of Federal assistance to State and local governments, individual victims, and the private sector.


www.oig.dhs.gov                                     3                                           OIG-13-84

                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


2. FEMA Successfully Overcame Staffing, Operational, and Funding Challenges

FEMA performed well at managing the challenges that Hurricane Isaac presented.
During the first 30 days, the most pressing challenges that faced FEMA included moving
staff from the Initial Operating Facility to the Joint Field Office, obtaining experienced
disaster staff, and expediting operational and funding requests.3

Initial Operating Facility Move to Joint Field Office: As the response and recovery effort
developed, FEMA needed more office space. This required relocating staff from the
Initial Operating Facility to the Joint Field Office, a four-story leased building in downtown
Baton Rouge, 9 miles away. FEMA’s Safety Officer identified several safety and security
issues with the Joint Field Office facility that needed attention before the move. After
resolving these issues, FEMA quickly accomplished the move on September 12, 2012.

Experienced Staff: FEMA’s Operations Section experienced some difficulty obtaining
experienced staff early in the disaster. FEMA staff said that they can no longer request
staff by name through the Automated Deployment Database system, which precludes
their ability to request individuals that they know are qualified. However, FEMA is
implementing a FEMA Qualification System to capture staff skill sets, which will enable
FEMA to identify and deploy qualified staff to disasters more quickly in the future.

Operational and Funding Requests: Logistics personnel voiced concerns about the need
to speed up the process time for operational/action requests. To resolve this issue,
FEMA is moving toward a new web-based emergency operations center called WebEOC®
to track and approve action requests. This system speeds the process by reducing the
number of people involved in approving the requests. FEMA tested WebEOC® in recent
Texas disasters and found it very effective.

Finance personnel were concerned about the length of time it took to analyze funding
requests and submit them to FEMA Headquarters for approval. However, they said
that, although the many steps and the manual aspects of collecting information to
complete the analyses were challenging, the increased interaction with the program
areas led to better overall information, communication, and coordination.




3
 The Joint Field Office is a temporary Federal facility that provides a central location for the coordination
of Federal, State, tribal, and local governments and private-sector and nongovernmental organizations
with primary responsibility for response and recovery.


www.oig.dhs.gov                                       4                                            OIG-13-84

                         OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


3. FEMA Overcame Staffing and Equipment Issues

FEMA successfully obtained and managed resources needed for this disaster. FEMA
officials said that their most significant resource shortfalls included (1) obtaining
qualified, experienced people to support the needs of the disaster and (2) quickly
providing ready-to-use equipment to deployed staff.

Qualified Staff: FEMA officials were concerned about obtaining qualified, experienced
staff to support the timely delivery of disaster services using the current staff
deployment system. However, most FEMA officials said that they were fortunate to
obtain the experienced staff they needed for this disaster, and most staff started
working immediately. As stated previously, FEMA is working on initiatives, such as the
FEMA Qualification System, to broaden its capability to ensure that staff members hold
the correct skill sets to draw upon during a disaster.

Equipment: The initial surge of staff during the first week of this disaster overwhelmed
the limited Information Technology (IT) staff and created servicing problems. However,
FEMA increased the number of IT staff and resolved these problems quickly. Further,
FEMA is eliminating the transportation and distribution backlog of equipment by directly
assigning equipment to FEMA reservists to keep in their possession to bring to their next
disaster assignment. This new process will expedite the time for reservists to start
working.

4. FEMA Relied on a Variety of Mechanisms for Disaster Sourcing Decisions

FEMA effectively made disaster sourcing decisions for this disaster. The primary
sourcing mechanisms for Hurricane Isaac included mission assignments; requisitions for
supplies, equipment, services, and personnel; and acquisitions. FEMA also discussed
with the State whether to use Emergency Management Assistance Compact.

Mission Assignments: The Federal Coordinating Officer in this disaster identified three
individuals to sign and approve mission assignment requests. The FEMA Operations
Section Chief located at the State Emergency Operations Center determined the
eligibility of mission assignment requests. If the State could not fulfill a request, the
State sent it to FEMA for review, approval, and action. This process appears to have
worked very well.

Requisitions for Supplies, Equipment, Services, and Personnel: Finance staff members
reviewed all requisitions for supplies, equipment, services, and personnel for proper
justification and need. This step verified the need for these resources before funding




www.oig.dhs.gov                             5                                     OIG-13-84

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


and reduced the likelihood of duplication by ensuring that FEMA did not use mission
assignments to obtain the same resources.

Acquisitions: FEMA’s Finance and Acquisitions staff used advance General Services
Administration, FEMA, and Department of Homeland Security (DHS) contracts for
purchases. In addition, Acquisitions personnel made every effort to award contracts to
local companies. At the time of our fieldwork, Acquisitions had awarded 15 contracts,
12 of which were to local companies. In addition, working under the umbrella of FEMA
Region VI, the Disaster Acquisition Response Team provided contract support to the
Joint Field Office. The team assisted in completing the contract for disaster housing in
only 23 days. This process normally takes 45 days or more.

Emergency Management Assistance Compact: FEMA considers Emergency Management
Assistance Compacts to be a relatively inexpensive option that enables one state to help
another when the disaster exceeds the state’s ability to recover. For this disaster, FEMA
and State officials discussed the option of using an Emergency Management Assistance
Compact, and the State decided not to request this type of assistance.

5. FEMA Effectively Coordinated Its Activities

FEMA effectively coordinated major activities during its response to Hurricane Isaac.
These activities included (1) establishing and supplying staging and mobilization sites,
(2) responding to temporary housing needs, (3) tracking and monitoring mission
assignments, and (4) obtaining appropriate staffing.

Staging and Mobilization Sites: Before the storm made landfall, FEMA activated the
Federal Staging Area at Camp Beauregard, a Federal facility located north of Alexandria,
Louisiana, and deployed a staging team there. As needs changed, FEMA moved staging
and mobilization sites to various locations. When needed, General Services
Administration staff assisted FEMA with moving trucks in and out of the various
locations.

Temporary Housing Needs: The Louisiana Housing Authority managed the response for
temporary housing needs. A Direct Housing Specialist at FEMA Region VI worked closely
with the State and helped obtain assistance from various key Federal agencies. The
coordination between both State and Federal agencies enabled the Temporary Housing
Program for this disaster to run smoothly.

Mission Assignments: The close coordination of mission assignment requests among
FEMA, State, and local officials was very effective. FEMA’s Request Action Tracking
System helped staff to monitor and coordinate mission assignments issued at different


www.oig.dhs.gov                              6                                    OIG-13-84

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


locations to avoid duplication and ensure delivery of requested items. The Request
Action Tracking System is a fully functional, web-based tool that tracks Action Request
Forms from initiation/acceptance through completion. Users can download reports or
email them to provide updates for easy sharing with State or other Federal agencies.

Staffing: FEMA and the State worked together to ensure the availability of experienced
staff. FEMA’s Office of Chief Counsel deployed seven attorneys authorized to make
decisions about the disaster to work at the Initial Operating Facility, Joint Field Office,
and branch locations. This group of attorneys enabled FEMA and the State to overcome
several potential problem areas. In addition, staff experienced in environmental and
historic preservation and hazard mitigation addressed potential problems in those
areas. Environmental Specialists provide guidance on compliance with environmental
and historic preservation laws and analyze potential problem areas including analyzing
mixed debris and disposing of animal remains.


                                       CONCLUSION

Based on our observations, FEMA performed very well in its response to Hurricane
Isaac. Normally, FEMA needs several days to deploy and position staff to the areas
needed to respond to a disaster. In this case, FEMA was fortunate to have facilities and
staff already operating in Louisiana when Hurricane Isaac made landfall. The ability to
draw upon these resources allowed FEMA to respond faster and more effectively than
usual. FEMA prepared well for this disaster, faced challenges with innovative solutions,
quickly resolved resource shortfalls, made efficient disaster sourcing decisions, and
coordinated its activities effectively with State and local officials. All disasters generate
unexpected issues, but the FEMA disaster team was able to adjust and adapt quickly to
fulfill its mission.




www.oig.dhs.gov                               7                                      OIG-13-84

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix A
Objective, Scope, and Methodology
The objective of this audit was to determine whether FEMA’s initial response to
Hurricane Isaac was effective and efficient, and to evaluate FEMA’s actions, resources,
and authorities according to Federal regulations and FEMA guidelines in effect at the
time of our fieldwork.

We interviewed FEMA officials, FEMA Incident Management Assistance Team members,
FEMA Disaster Assistance Employees, and Louisiana Governor’s Office of Homeland
Security and Emergency Preparedness officials; observed operations at FEMA’s Initial
Operating Facility and Joint Field Office in Baton Rouge, Louisiana; and performed other
procedures considered necessary to accomplish our objective. We did not assess the
adequacy of the agency’s internal controls applicable to disaster response because it
was not necessary to accomplish our audit objective.

We also observed operations at the following sites in the State of Louisiana:

   •   State Emergency Operating Center (EOC) in Baton Rouge.
   •   Parish EOCs in East Baton Rouge Parish and St. John the Baptist Parish.
   •   Disaster Recovery Centers in Livingston, Plaquemines, and St. James parishes.
   •   FEMA/State Applicant Briefings in Gretna, Baton Rouge, and Laplace.
   •   Damage sites in Ascension, Livingston, and St. John the Baptist parishes.
   •   Debris operations at the Killona Landfill in St. Charles Parish.

We conducted this performance audit between September and October 2012, pursuant
to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objectives.




www.oig.dhs.gov                             8                                   OIG-13-84

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix B
Major Contributors to This Report
Tonda Hadley, Director
Judy Martinez, Supervisory Program Analyst
Mary Monachello, Auditor
Arthur Jones, Program Analyst
Chiquita Washington, Auditor
Susan Stipe, Senior Auditor




www.oig.dhs.gov                          9                    OIG-13-84

                       OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


Appendix C
Report Distribution
Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison

Federal Emergency Management Agency

Administrator
Chief Counsel
Chief of Staff
Chief Financial Officer
Acting Associate Administrator, Response and Recovery
Director, Risk Management and Compliance
Federal Coordinating Officer, FEMA Disaster Number 4080-DR-LA
Regional Administrator, FEMA Region VI
Interim Director, FEMA Louisiana Recovery Office
Audit Liaison, FEMA (Job Code G-13-006)
Audit Liaison, FEMA Region VI
Audit Liaison, FEMA Louisiana Recovery Office

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform
House Committee on Transportation and Infrastructure




www.oig.dhs.gov                         10                              OIG-13-84

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
